No. ______
IN THE

Supreme Court of the United States
CHEROKEE NATION; ONEIDA NATION; QUINAULT INDIAN NATION;
MORONGO BAND OF MISSION INDIANS,
Petitioners,
v.
CHAD EVERETT BRACKEEN, et al.,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,976
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 3, 2021.

/s/ Ian Heath Gershengorn
Ian Heath Gershengorn

